Office of Inspector General




 ANALYSIS OF THE CAUSES OF AMTRAK
           TRAIN DELAYS

        Federal Railroad Administration

         Report Number: CR-2012-148
          Date Issued: July 10, 2012
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Analysis of the Causes of                                    Date:    July 10, 2012
           Amtrak Train Delays
           Federal Railroad Administration
           Report No. CR-2012-148

  From:    Mitchell Behm                                                          Reply to
                                                                                  Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime, and
           Economic Analysis

    To:    Federal Railroad Administrator

           Amtrak train delays outside the Northeast Corridor (NEC) reduce the value of
           Amtrak service as an option for travelers and increase the railroad’s need for
           subsidies. Consequently, they have long been the subject of congressional concern
           and industry debate. Amtrak points to freight railroads’ dispatching practices as
           the cause with the greatest impact on Amtrak train delays, while the freight
           railroads contend that capacity limitations, or insufficient infrastructure 1 for rail
           traffic levels, contribute more heavily.

           In 2008, we issued two audit reports on Amtrak delays in response to requests
           from the Surface Transportation Subcommittee of the Senate Committee on
           Commerce, Science, and Transportation, and the Senate Appropriations
           Subcommittee on Transportation, Housing and Urban Development, and Related
           Agencies. In the first report, we concluded that delays outside the NEC
           substantially reduced Amtrak’s net earnings. 2 In the second report, we identified
           causes of these delays but did not assess their relative importance. 3

           The impact of Amtrak delays took on a new significance with the passage of the
           Passenger Rail Investment and Improvement Act of 2008, 4 and the American
           Recovery and Reinvestment Act of 2009. 5 Together, these acts provided

           1
               Rail infrastructure includes track, sidings, signals, switches, and yards.
           2
               OIG Report Number CR-2008-047, “The Effects of Amtrak's Poor On-Time Performance,” March 28, 2008. OIG
               reports are available on our Web site: www.oig.dot.gov.
           3
               OIG Report Number CR-2008-076, “Root Causes of Amtrak Train Delays,” September 8, 2008.
           4
               P.L. No.110-432, Div. B.
           5
               P.L. No. 111-5.
                                                                                                                         2


$12 billion to create and sustain a High Speed Intercity Passenger Rail (HSIPR)
program. A substantial portion of the HSIPR program is geared towards improving
the speed and reliability of existing Amtrak services. The Administration’s current
budget proposal would add $47 billion more to the HSIPR program over the next
6 years. Stakeholders responsible for determining the distribution of these funds
need information on the causes of Amtrak service delays.

We conducted this analysis to determine significant causes of Amtrak delays and
to quantify their relative impacts. In our analysis, we (1) identified statistically
significant causes of delays—those whose impacts were greater than would be
expected to occur by chance—outside the NEC and under the control of either
Amtrak or a freight railroad; (2) assessed the degree of influence each cause had
on Amtrak delays system-wide 6 and by individual route; and (3) examined delay
determinants at locations of consistent, substantial delay.

To conduct our work, we constructed statistical models of Amtrak delays using
data from Amtrak, the Surface Transportation Board’s Carload Waybill Sample,
and Oak Ridge National Laboratory’s national rail network model. 7 Our sample
covered fiscal years 2002 through 2007. 8 Since the marked reductions in freight
traffic caused by the economic recession that began in late 2008 resulted in
different usage patterns, we did not include post-fiscal year 2007 data in our
analysis. However, our findings remain relevant given freight rail traffic’s recent
strong growth. 9 We analyzed on-track delays, which are the delays incurred by a
train between the time it leaves one station and arrives at another, and did not
analyze delays occurring in stations. 10 Furthermore, we analyzed delays with
respect to pure runtime—the time it takes a train to travel between two stations in
the absence of interruptions—rather than delays with respect to schedule.
Schedule delays differ from delays with respect to pure runtime by the amount of
schedule padding negotiated between Amtrak and the freight railroads, which can
differ for reasons unrelated to underlying delay causes. Additional information on
our scope and methodology is provided in Exhibits A and B.




6
     System-wide delays were calculated as the average delays across all non-NEC routes.
7
     We also used data from the National Climatic Center to control for some causes beyond stakeholder control.
8
     Amtrak’s fiscal year begins October 1.
9
     The numerical estimates of different causes’ delay contributions are specific to the sample period, but the results
     concerning the relative importance of different categories of causes remain relevant. For example, the estimated
     seconds of delay attributable to each host railroad holds only for the sample period, while the findings concerning the
     relative importance of host railroad effects to delays remains relevant.
10
     On-track delays accounted for 77 percent of total delays in our sample, and in-station delays for the rest.
                                                                                                                          3


BACKGROUND

The Passenger Rail Investment and Improvement Act of 2008 directed the
Secretary to establish a HSIPR program, and authorized approximately $4 billion
over a 5-year period for HSIPR investments. Four months after that act’s passage,
the American Recovery and Reinvestment Act of 2009 appropriated another
$8 billion for HSIPR to be allocated over a much shorter time span. Under its
current budget proposal, the Administration would allocate $47 billion to HSIPR
over the next 6 years. Responsibility for implementing the HSIPR program has
been delegated to the Federal Railroad Administration (FRA). Under the program,
State transportation departments, often in collaboration with freight railroads and
Amtrak, apply to FRA for investment funds.

Outside the NEC, Amtrak trains operate almost exclusively on infrastructure
owned and dispatched by freight railroads. Freight railroads’ dispatchers are
required by law 11 to give Amtrak’s trains preference when freight trains and
passenger trains operate on the same routes. However, Amtrak and the freight
railroads disagree over whether preference is actually always given to Amtrak.
Further, the relative importance of freight train interference in Amtrak delays is a
particularly controversial issue for Amtrak and the freight railroads. In our 2008
study, we found that freight train interference was one of the primary causes of
Amtrak delays, but that study relied entirely on data constructed from Amtrak
conductors’ observations. Amtrak’s conductors have limited abilities to separate
freight train interference from other delay causes. Hypothetically, if a conductor
observes a freight train blocking his Amtrak train but cannot determine the reason
for the freight train’s failure to move, the conductor may record the cause of the
train’s delay as freight train interference, even though something else may be
impeding the freight train’s movement.

Amtrak services on routes outside the NEC generally exhibit worse on-time
performance (OTP) 12 than Amtrak services on the NEC—where Amtrak largely
owns the tracks and dispatches rail traffic. OTP on non-NEC long-distance routes
is particularly poor. During the study period for this analysis, OTP on the NEC
ranged between 75 and 90 percent, while on the 15 long-distance routes outside
the NEC, it was consistently below 55 percent. During the same period, OTP on

11
     49 U.S.C. § 24308(c)
12
     An Amtrak train is considered on time if it arrives at its endpoint, or final destination, within a fixed number of
     minutes of its scheduled arrival time. The fixed number of minutes depends upon trip length as follows: arrival at an
     endpoint 10 minutes or less late of the scheduled arrival time is considered on time on trips of less than 250 miles; 15
     minutes or less late is on time on trips between 250 and 350 miles; 20 minutes or less late is on time on routes
     between 350 and 450 miles; 25 minutes or less late is on time on routes between 450 and 550 miles; 30 minutes or
     less late is on time on routes of more than 550 miles. Trip length is the total distance traveled by a train from its
     origin to its final destination. Acela is held to a stricter standard. Even though its trip length exceeds 450 miles,
     Amtrak considers Acela on time only if it arrives at its endpoint within 10 minutes of its scheduled arrival.
                                                                                                                         4


Amtrak’s 13 non-NEC short-distance routes varied from 65 to 76 percent. Figure 1
depicts OTP on the NEC, and on non-NEC long- and short-distance services.

Figure 1. Amtrak’s Average Annual OTP for Fiscal Year 2002-
Fiscal Year 2007

                                   90%
     Average On-Time Performance




                                   80%

                                   70%

                                   60%

                                   50%

                                   40%

                                   30%

                                   20%
                                         2002   2003          2004             2005              2006             2007

                                          NEC   Non-NEC Short Distance             Non- NEC Long Distance
Source: Amtrak data

Delays also differ across routes, which differ in host railroad, congestion, track
configuration, and terrain. For example, the average OTP for two long-distance
routes, the Sunset Limited and the Empire Builder, is 14 percent and 72 percent,
respectively. 13 Two short-distance routes, the Carolinian and the Hiawatha, show a
similar range of average OTP at 30 percent and 92 percent, respectively. However,
long-distance routes tend to exhibit greater variation in OTP than short-distance
routes.

In the current study, we analyzed delays at the station-pair level to capture the
causes of delays at their origins. We defined a station-pair as two Amtrak stations
on a route—the first station being the origin and the second station being the
destination—with no Amtrak stations in between. 14 On average, there were
30 station-pairs on each long-distance route and 20 station-pairs on each short-
distance route.




13
         For the locations of Amtrak routes, see Exhibit D.
14
         In our analysis, we also differentiated between station-pairs by direction of travel and by Amtrak service.
                                                                                                                  5


RESULTS IN BRIEF

We identified six statistically significant causes of Amtrak delays:
• slow orders, which are speed restrictions imposed by host railroads along track
  segments in poor condition or undergoing repairs or improvement; 15
• capacity utilization, which is a measure of congestion;
• host effects, or the effects of operating on track owned and dispatched by a
  particular host railroad or group of host railroads; 16
• turn points, where Amtrak changes crews;
• late arrivals, or Amtrak trains operating well outside their scheduled time slot;
  and
• Amtrak mechanical problems.

Virtually the same causes were significant for both long-distance and short-
distance services. 17

The chief causes of delays system-wide were host effects and slow orders.
However, delays caused by host effects differed considerably by host. For
example, the difference between the largest and the smallest host railroad
contributions to delays along a long-distance route, averaged across the Amtrak
system, was 38 minutes and 30 seconds. Only slow orders may have produced
sufficiently large delays to exceed the delays caused by the largest host effects.18
Other factors, such as capacity utilization and activities at turn points, contributed
significantly to delays system-wide, but considerably less than either host effects
or slow orders. On most individual routes, as opposed to system-wide, slow orders
caused the largest delays of any factors other than host effects. 19 Delays caused by
different hosts varied even more widely across individual routes than they did on a
system-wide basis.

At the locations with the highest average delays, slow orders, capacity utilization,
and late arrivals were generally well above their system-wide averages. This
suggests that all three causes contributed notably to delays at these locations. 20

15
   Slow orders can also be imposed because of adverse weather conditions. However, we analyzed weather effects
   separately (see Exhibit B), and our results on slow orders relate only to infrastructure issues.
16
   These effects are broken out by specific host railroad or host railroad group in the body of the report.
17
   As defined by Amtrak, long-distance routes extend 550 miles or more and short-distance routes cover less than 550
   miles.
18
   We could determine only minimum values for the delays caused by host effects system-wide. The delays caused by
   slow orders exceeded the minimum host effect values, but we could not determine how they would compare to the
   average values of host effects.
19
   On individual routes, we were unable to compare the size of delays caused by host effects versus other factors.
20
   We cannot test this hypothesis because our models, which were estimated on a system-wide basis, cannot generate
   meaningful delay impact estimates for individual station-pairs.
                                                                                      6


Host effects may have also played a role, but we cannot measure them at the
individual station-pair level. Further analysis found that locations with the highest
levels of slow orders also had some of the highest average delays, while locations
with the highest levels of either capacity utilization or late arrivals did not have
particularly large delays. This suggests that slow orders may have contributed
more to delays at these station-pairs than either capacity utilization or late arrivals.

OUR MODELING PROCESS IDENTIFIED SIX STATISTICALLY
SIGNIFICANT CAUSES OF DELAYS

In our modeling process, we identified six statistically significant causes of
Amtrak train delays under stakeholder control. Four of these causes were under
the control of a specific stakeholder: host railroads’ effects, slow orders, Amtrak
mechanical failures, and activities at Amtrak turn points. The other two—capacity
utilization and late arrivals—were not. Capacity utilization is, in part, a function of
capital investment, which can be carried out by the freight railroads alone or in
partnership with the public sector. Late arrivals—or trains that arrive significantly
late at their stations of departure—are out of their scheduled time slots and cause
dispatching problems further down their routes. Whether or not an Amtrak train is
out of its scheduled time slot arguably depends on the actions of both Amtrak and
the host railroad. Virtually the same causes were significant on both long- and
short-distance services. Table 1 details these causes.
                                                                                                                              7




Table 1. Statistically Significant Causes of Amtrak Train Delays
    Cause a                        Definition
    Capacity Utilization           The amount of rail traffic divided by infrastructure capacity, which is the
                                   maximum amount of cars that can travel on a track segment based on
                                   the segment’s characteristics. Congestion increases as capacity
                                   utilization increases.
    Slow Orders                    Speed restrictions imposed by the host railroad; we considered only
                                   those slow orders due to poor infrastructure conditions, and
                                   infrastructure repair and improvement work.
                                                                                                                   b
    Amtrak Mechanical              Mechanical failures of Amtrak's locomotives and rolling stock.
    Late Arrival                   The percentage of trains that arrived at least two hours late at the origin
                                   station.
    Turn Point                     A location at which a train’s crew changes.
    Host Effects                   Host effects capture the impacts of such host railroad factors as
                                   dispatching practices, management capability, and business model.
       BNSF Host Effect            The effect of operating on infrastructure owned and dispatched by
                                   Burlington Northern Santa Fe Railroad (BNSF).
       CSXT Host Effect            The effect of operating on infrastructure owned and dispatched by CSX
                                   Transportation (CSXT).
       NS Host Effect              The effect of operating on infrastructure owned and dispatched by
                                   Norfolk Southern Railroad (NS).
       UP Host Effect              The effect of operating on infrastructure owned and dispatched by Union
                                   Pacific Railroad (UP).
       CN Host Effect              The effect of operating on infrastructure owned and dispatched by
                                   Canadian National Railroad (CN).
       Multiple Host Effect The effect of operating on infrastructure owned and dispatched by
                            multiple railroads between two stations.
a
     All causes were measured on a monthly basis at the station-pair level.
b
     Rolling stock includes all rail cars other than locomotives.


Unlike other causes in our model, we measured host effects relative to a baseline.
Measurement of total host effects would require comparison with operations in the
absence of any host effect, but this is impossible since trains always operate on
some entity’s infrastructure. Consequently, we measured delay caused by a host
effect relative to a baseline of delay associated with operation on infrastructure
owned and dispatched primarily by short-line and regional railroads. 21 Therefore,
a host effect is the difference in delays attributed to operating on infrastructure


21
     Generally, Class III carriers are referred to as short lines, and Class II carriers are referred to as regional railroads.
     The four host railroads whose effects we traced are Class I railroads, which have annual revenues in excess of $250
     million adjusted to 1991 dollars.
                                                                                                                       8


owned and dispatched by the particular host and delays from operating on
infrastructure primarily owned and dispatched by regional and short-line railroads.

HOST EFFECTS AND SLOW ORDERS CAUSED THE LARGEST
DELAYS SYSTEM-WIDE AND CONTRIBUTED SUBSTANTIALLY
TO ROUTE LEVEL DELAYS

Host effects and slow orders were the chief causes of delays system-wide.
However, delays caused by host effects varied considerably from one host railroad
to another, for both long- and short-distance services system-wide. Only slow
orders may have caused delays greater than those caused by the largest host
effects. Capacity utilization and the activities at turn points also contributed
notably to delays on both types of services, but capacity utilization had a relatively
greater impact on short-distance services than on long-distance services. Amtrak
mechanical problems contributed little to delays on either type of service. Delays
caused by different hosts varied even more widely across individual routes than
they did system-wide. Slow orders dominated other non-host effect causes in their
contributions to individual route delays.

Delays Caused by Host Effects Differed Markedly Across Freight
Railroads for Long-Distance Services System-wide

Delays differed substantially depending on which freight railroad owned and
dispatched traffic over the infrastructure on which an Amtrak train operated. On
average, the UP host effect caused 50 seconds more delay between each
station-pair than the baseline railroad group. 22 In contrast, long-distance services
on BNSF’s rails experienced 27 seconds less delay between each station-pair on
average than those operating on the baseline group’s infrastructure. Over an entire
long-distance route, the UP host effect added an average 25 minutes of delay more
than the baseline (50 seconds times 30 stations), while the BNSF host effect
reduced delays 13 minutes 30 seconds below the baseline. Figure 2 depicts the
contributions of individual host effects to station-pair delays on long-distance
services. 23 No bar appears for the CN host effect because it was statistically
indistinguishable from the baseline host effect.




22
     We calculated each causal factor’s contributions to delays as the product of the average value of the factor and its
     estimated effect. For example, to calculate slow orders’ contribution to system-wide long-distance delays, we
     multiplied the system-wide average level of slow orders on long-distance routes times slow orders’ average effect on
     delays between a station-pair on a long-distance service.
23
     Exhibit C shows the estimates underlying Figures 2-5, along with their confidence intervals.
                                                                                    9




Figure 2: Host Effects’ Contributions to Station-Pair Delay on
Long-Distance Services System-wide

          UP Host

        CSXT Host

          NS Host

     Multiple Host

          CN Host

        BNSF Host

                     -40             -20            Baseline
                                                       0                 20   40   60
                                                               Seconds
Source: OIG

A minimum value for the baseline host effect can be determined for long-distance
services system-wide. Host effect contributions to delays cannot be negative, since
trains cannot travel faster than pure runtime. So the baseline host effect must be at
least as large and positive as BNSF’s host effect in relation to it is negative. At a
minimum, 24 the baseline host effect causes 27 seconds of delay at each station-
pair. Consequently, UP’s host effect caused a minimum of 1 minute 17 seconds of
delay (27 seconds minimum baseline value plus 50 seconds UP host delay relative
to the baseline) between station-pairs. This translates into an average 38 minutes
30 seconds of delay over an entire long-distance route from traveling on UP
controlled infrastructure. Similarly, CSXT, NS, and multi-host effects generated
delays equal to the value of their impacts relative to the baseline plus at least
27 seconds, for total minimum contributions to station-pair delays of 65, 44, and
38 seconds, respectively.

Only Slow Orders May Have Caused Longer Delays Than the Largest
Host Effects Caused on Long-Distance Services System-wide

Slow orders caused the greatest delays among factors other than host effects on the
long-distance services system-wide—1 minute 55 seconds on average between
each station-pair—which represents 23 percent of the average long-distance

24
     This minimum assumes BNSF does not cause any increase in delays.
                                                                                10


service station-pair delay of 8 minutes and 25 seconds. Over the entire length of a
long-distance route, slow orders contributed 57 minutes 30 seconds of delay on
average. No other cause contributed delays greater than the minimum values of
most host effects. Figure 3 shows the contributions of all causes other than host
effects. After slow orders, late arrivals made the next largest contributions to
delays. On average, they added 30 seconds of delay between each station-pair,
while capacity utilization and turn points contributed 26 seconds and 20 seconds,
respectively. Amtrak mechanical problems contributed little to delays.

Figure 3: Non-Host Effect Causes’ Contributions to Station-Pair
Delay on Long-Distance Services System-wide


        Slow Orders


 Capacity Utilization


          Turn Point


         Late Arrival


 Amtrak Mechanical

                        0             40                  80                  120
                                               Seconds
Source: OIG
                                                                                 11


Two Host Effects and Slow Orders Caused the Largest Delays on
Short-Distance Services System-wide

Host effects on short-distance services system-wide also varied widely. As
Figure 4 illustrates, the multiple host effect generated the largest delay above the
baseline—15 seconds. The UP host effect added 12 seconds, the second largest
delay contribution. CN, CSXT, and NS host effects were statistically
indistinguishable from the baseline host effect. As with long-distance services,
short-distance services operating on BNSF’s rails experienced less delay than
those operating on the baseline group’s infrastructure—24 seconds less on
average.

Figure 4: Host Effects’ Contributions to Station-Pair Delay on
Short-Distance Services System-wide

 Multiple Host

      UP Host

    CSXT Host

      NS Host

      CN Host

    BNSF Host

                 -40               -20                    0
                                                       Baseline                 20
                                            Seconds
Source: OIG

Again, the baseline delay must be at least as large and positive as the BNSF host
effect is large and negative. At a minimum then, the multiple host effect between a
station-pair added 39 seconds to delay (24 seconds minimum baseline value plus
15 seconds multiple host delay relative to the baseline), and the UP host effect
added 36 seconds. The minimum values of these two host effects exceeded the
contributions of all non-host effect causes except slow orders.
                                                                                   12


Slow orders contributed 1 minute 3 seconds to the average total delay on
short-distance services of 5 minutes 10 seconds, or approximately 20 percent.
Figure 5 shows the contributions of non-host effect causes to delays on short-
distance services system-wide. Capacity utilization played a relatively more
prominent role in delays on short-distance services than on long-distance services,
contributing 24 seconds between each station-pair, or 8 percent of the average
total. Turn points increased delays between station-pairs by 16 seconds. Few trains
arrived at their departure stations over two hours late on short-distance services, so
late arrivals did not have a major impact on short-distance delays. As on long-
distance services, Amtrak mechanical problems contributed little to delays on
short-distances services.

Figure 5: Non-Host Effect Causes’ Contributions to Station-Pair
Delay on Short-Distance Services System-wide

         Slow Orders


  Capacity Utilization


           Turn Point


          Late Arrival


  Amtrak Mechanical

                         0         20             40              60              80
                                                Seconds
Source: OIG
                                                                                                                                          13


Host Effects Had Widely Varying Impacts and Slow Orders Caused
Substantial Delays Across Individual Long-Distance Routes

Host effects on individual long-distance routes varied greatly from one route to
another, as Figure 6 shows. 25 The impact of host effects on individual routes
depends on the proportion of the infrastructure owned by the host on that route.
For example, the Illinois/Missouri Service travels on UP infrastructure for the
majority of its length, and the UP host effect contributes 3 minutes 11 seconds to
station-pair delays on that route. In contrast, the UP host effect’s contribution to
long-distance service delays system-wide captures UP’s impact only on UP’s
portion of the entire long-distance system’s infrastructure. Because we generated
route level results using the system-wide model, we cannot determine a minimum
value for the baseline for individual routes.

Figure 6: Host Effects’ Contributions to Station-Pair Delay on
Individual Long-Distance Routes
                        5

                        4                                                                  3.75
                                                                                                                         3.25   3.07
     Minutes of Delay




                                             2.81                  2.79
                        3
                                                                                                  2.53
                                    2.29             2.27                                                2.32                          2.26
                                                                          1.93
                        2
                             1.30
                        1
                                                            0.20
                        0

                        -1
                                                                                                                 -1.76
                                                                                   -1.43
                        -2




                                           UP Host    BNSF Host    Multiple Host      CSXT Host    NS Host      Net Effect

Source: OIG




25
       Exhibit E shows the estimates underlying Figures 6-7.
                                                                                                             14


Among non-host effect causes, slow orders produced the largest delays on most
individual long-distance routes. However, the amount of delay due to slow orders
varied considerably across routes. For example, slow orders added 4 minutes
34 seconds to station-pair delays on the Texas Eagle, but only 39 seconds on the
Southwest Chief. Figure 7 depicts the causes’ relative contributions. Late arrivals
increased delays on many of the long-distance routes, but most notably on the
Sunset Limited, Coast Starlight, and California Zephyr.

Figure 7: Non-Host Effect Causes’ Contributions to Station-Pair
Delay on Individual Long-Distance Routes
                    7

                    6

                    5
 Minutes of Delay




                    4

                    3

                    2

                    1

                    0




                        Capacity Utilization   Slow Orders   Amtrak Mechanical   Late Arrival   Turn Point

Source: OIG
                                                                                                                                   15


As depicted in Figure 8, the multiple host effect caused sizable delays on several
individual short-distance routes, while the UP host effect caused substantial delays
on the Capitol Corridor and Missouri routes. 26 Short-distance routes hosted at least
in part by BNSF experienced reductions in delays relative to the baseline system-
wide host effect. Among these routes, the Cascades, Heartland Flyer, and San
Joaquin experienced particularly substantial reductions in relation to the baseline.

Figure 8: Host Effects’ Contributions to Station-Pair Delay on
Individual Short-Distance Routes
                        2



                                                              1.05               1.05             0.95
                             0.95
     Minutes of Delay




                        1
                                                                                          0.71


                                                     0.00                                                        0.06   0.00
                        0
                                                                       0.07
                                                                                                         -0.10

                                                                                                                               -0.91
 Baseline                           -1.06
        -1


                                            -1.80
                        -2




                                                    UP Host          BNSF Host          Multiple Host     Net Effect

Source: OIG




26
     Exhibit F shows the estimates underlying Figures 8-9.
                                                                                                                        16


Slow orders caused large delays, but not always the largest of non-host effect
causes on individual short-distance routes. For example, capacity utilization
contributed more to delays on the Pacific Surfliner, Pennsylvanian and San
Joaquin routes than slow orders, as Figure 9 indicates. Late arrivals had less
impact on short-distance routes than on long-distance routes because far fewer
trains ran so far outside of their scheduled time slots over the shorter distances.

Figure 9: Non-Host Effect Causes’ Contributions to Station-Pair
Delay on Individual Short-Distance Routes
                   6




                   4
Minutes of Delay




                   2




                   0




                                  Capacity Utilization   Slow Orders   Amtrak Mechanical    Late Arrival   Turn Point

Source: OIG

SEVERAL DELAY CAUSES HAD ELEVATED VALUES AT
STATION-PAIRS WITH THE HIGHEST AVERAGE DELAYS, BUT
SLOW ORDERS MAY HAVE BEEN THE MOST IMPORTANT

Slow orders, capacity utilization, and late arrivals at the locations with the highest
average delays were all generally above their system-wide averages—suggesting
that all three causes contributed notably to these delays. We cannot test this
hypothesis, however, because our system-wide models cannot generate delay
impact estimates at individual station-pairs. 27 Furthermore, without using our
models, we cannot measure host effects. However, further analysis of the raw data
reveals that locations with the highest levels of slow orders also had some of the
highest average delays, while locations with the highest levels of either capacity


27
          Use of a system-wide model at the station-pair level would involve errors beyond acceptable levels.
                                                                                                                        17


utilization or late arrivals did not have particularly large delays. These data
suggest that slow orders may have primarily driven the largest station-pair delays.

Slow orders, capacity utilization, and late arrivals were all generally above their
system-wide averages at the station-pairs with the highest average delays, as
illustrated in Table 2 for a selection of those station-pairs. 28 This fact suggests that
these causes all contributed notably to delays at these locations.


Table 2. Delay Causes’ Average Values at Selected Station-Pairs
with High Average Delay
Station-Pair                       Route                     Average      Slow  Capacity                           Late
                                                                Delay   Orders Utilization                       Arrival
                                                            (minutes) (minutes)        (%)                          (%)
Long-Distance Services
San Antonio – Houston              Sunset Ltd.                      48.4             15.3              52.5          42.6
Alpine-El Paso                     Sunset Ltd.                      46.0             14.0              49.3          44.6
St. Louis-Poplar Bluff             Texas Eagle                      43.2             37.9               2.8           3.6
Winnemucca-Sparks                  California Zephyr                41.1             28.0              41.4          53.7
Salt Lake City-Elko                California Zephyr                40.0             19.6               7.9          22.0
System-wide                                                           8.4             2.1              15.2          17.5

Short-Distance Services
Vancouver-Bellingham               Cascades                         29.4              5.5               6.8           0.0
Springfield-Alton                  Illinois                         25.6              6.0               6.4           1.7
Sedalia-Jefferson City             Missouri                         24.4              1.9              14.7           3.0
Lee’s Summit-                      Missouri                         21.1              1.5              12.7           1.1
Warrensburg
Pittsburgh-Alliance                Pennsylvanian                    19.1              3.3              12.2           2.2
System-wide                                                           5.2             0.9              10.1           1.5
 Source: OIG




28
     We chose to display a selection from among the station-pairs with the highest average delays to avoid primarily
     showing data for station-pairs that differed only in direction, and to provide a sampling from different routes. Similar
     concerns determined our selections of station-pairs for Tables 3-4.
                                                                                      18


We examined average delays at the station-pairs with the highest levels of slow
orders. Delays at these station-pairs matched the magnitudes of the delays at the
station-pairs with the highest average delays. Table 3 illustrates this for selected
station-pairs.

Table 3. Delay Causes’ Average Values at Selected Station-Pairs
with High Average Slow Orders
Station-Pair              Route                Average        Slow  Capacity       Late
                                                  Delay     Orders Utilization   Arrival
                                              (minutes)   (minutes)        (%)      (%)
Long-Distance Services
St. Louis- Poplar Bluff   Texas Eagle              43.2        37.9        2.8       3.6
Elko-Winnemucca           California Zephyr        41.0        33.9       34.5     31.0
Salt Lake City-Elko       California Zephyr        40.0        19.6        7.9     22.0
Chico-Sacramento          Coast Starlight          27.9        19.4        6.5     44.3
Klamath Falls-Dunsmuir Coast Starlight             31.9        17.8       10.9     25.9
System-wide                                         8.4         2.1       15.2     17.5

Short-Distance Services
Hermann-Jefferson City    Missouri                 16.1         6.1       24.2       4.2
Springfield-Alton         Illinois                 25.6         6.0        6.4       1.7
Gainesville-Fort Worth    Heartland Flyer          18.8         5.7       40.6       0.8
Vancouver-Bellingham      Cascades                 29.4         5.5        6.8       0.0
Rensselaer-Dyer           Hoosier                  10.4         5.1        2.9       3.7
System-wide                                         5.2         0.9       10.1       1.5
Source: OIG
                                                                                    19


By comparison, we did not find an association between the highest values of
capacity utilization and late arrival and the highest station-pair delays. Table 4
illustrates this with the average delays at station-pairs selected from among those
with the highest levels of capacity utilization. Taken together, these results suggest
that slow orders alone could have driven the bulk of the delays at the station-pairs
with the highest average delays


Table 4. Delay Causes’ Average Values at Selected Station-Pairs
with High Average Capacity Utilization
Station-Pair             Route              Average      Slow     Capacity       Late
                                               Delay   Orders    Utilization   Arrival
                                           (minutes) (minutes)           (%)      (%)
Long-Distance Services
Pomona-Ontario           Sunset Ltd.             4.7       0.2         95.0        5.5
Deming-Lordsburg         Sunset Ltd.            12.0       0.6         87.7      51.1
Tucson-Maricopa          Sunset Ltd.            18.1       0.3         81.0      49.5
Yuma-North Palm          Sunset Ltd.            28.4       2.9         77.0      59.7
Springs
Glasgow-Wolf Point       Empire Builder          2.2       0.6         62.7        8.4
System-wide                                      8.4       2.1         15.2      17.5

Short-Distance Services
Martinez-Antioch         San Joaquin             1.3       1.2         68.5        0.2
Gainesville-Fort Worth   Heartland Flyer        18.8       5.7         40.6        0.8
Wasco-Corcoran           San Joaquin             3.5       0.5         33.7        0.2
Fresno-Madera            San Joaquin             1.9       0.6         29.8        0.5
Seattle-Edmonds          Cascades                1.2       0.4         28.3        0.3
System-wide                                      5.2       0.9         10.1        1.5
Source: OIG
                                                                                       20


    CONCLUDING OBSERVATIONS

    Train delays substantially increase Amtrak’s need for subsidies and reduce the
    value of intercity passenger rail as an option for travelers. Under the HSIPR
    program, substantial investment funds have been made available to improve
    passenger rail’s speed and reliability. Stakeholders making and overseeing
    investments in rail infrastructure involving public funds need to be aware of
    causes of the delays that they are intending to reduce as part of the decision
    making process. Of key concern is the need to differentiate those factors in
    passenger train delays that may not require capital investment to address, such as
    host effects and slow orders, from those factors that require investment. Making
    this distinction is critical to ensure publically funded rail investments are targeted
    to locations where capacity constraints are the primary cause of delays, and not
    expended on locations where other delay causes predominate.
                                              #

cc: Audit Liaison, OST, M-1
    Audit Liaison, FRA, RAD-43
    Amtrak Liaison
                                                                                   21



EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this analysis to identify the primary causes of delays and determine
their relative impacts. In our analysis, we: (1) identified statistically significant
causes of delay—those whose impacts were greater than would be expected to
occur by chance—outside the NEC and under the control of a stakeholder, either
Amtrak or a freight railroad; (2) assessed the degree of influence each cause had
on Amtrak’s delays system-wide and by individual route; and (3) examined delay
determinants at locations of consistent, substantial delay.

We built our sample from Amtrak’s 28 non-NEC passenger routes, 15 of which
were long-distance routes—or longer than 550 miles—and 13 of which were
short-distance. The sample period included fiscal years 2002 through 2007. We
compiled 1,117 unique, non-overlapping Amtrak origin and destination
station-pairs. The station-pairs differed by direction and route because delay times
can differ according to these parameters. The unit of observation in our data was a
unique combination of origin station, destination station, route, and month.

We designed and estimated delay models to explain the variations in delay of
Amtrak’s trains. The dependent variable—the one we wished to explain—was the
average minutes of on-track delay at the station-pair level. The independent
variables—those used to explain the variations in delays—included precipitation;
temperature; capacity utilization; slow orders; mechanical delays; late arrivals;
turn points—locations at which crews changed; distance between stations; host
effects; meetings between Amtrak and various freights to address delay issues; and
fiscal year dummy variables.

We divided our sample into long-distance and short-distance routes when
estimating our delay models. The models for these two types of routes were the
same except that we excluded the meeting variables from the short-distance model
because these meetings were unrelated to short-distance routes. The decision to
estimate separate models was based upon the different characteristics associated
with these services as well as test results. For example, outside of the NEC, short-
distance routes are served by shorter, lighter trains that can travel at higher speeds
than those on long-distance routes.

We generated our measure of delay with respect to pure runtime (PRT). PRT is the
time required to make a trip in the absence of any interference. Our delay variable
was the difference between the time a train departed an origin station and the time
it arrived at its destination station minus PRT. PRT delays differ from delays with
respect to scheduled travel time, which incorporates schedule padding introduced



Exhibit A. Scope and Methodology
                                                                                                                 22


to accommodate expected delays and as a result of negotiations between Amtrak
and the host railroads.

Capacity utilization is traffic volume divided by railroad infrastructure capacity.
We used the maximum value of the calculated capacity utilization rate across all
track segments between a station-pair. Oak Ridge National Lab (ORNL)
developed the capacity values for each infrastructure segment based on four
different factors: number of tracks, type of signal system, frequency of passing
sidings, and terrain grade.

Traffic volume is defined as the total number of rail cars—locomotives, Amtrak
rail cars, commuter rail cars, and freight rail cars—that pass over a segment of
track in a given month. We obtained raw data on daily freight traffic from the
Surface Transportation Board’s Carload Waybill Sample. 1 ORNL used the
Transportation Routing Analysis Geographical Information System (TRAGIS), a
national railroad routing simulation program, to assign routes to all freight traffic
identified in the Waybill Sample. We determined Amtrak train frequency using
Amtrak timetables and the number of cars on each train from Amtrak’s consist
books. 2 We obtained information on commuter train frequency and number of cars
per train from 10 commuter agencies.

We captured host effects using dummy variables for the host railroads that own
and dispatch the associated infrastructure. The host railroads for each of our
1,117 station-pairs remained constant in our sample. 3 Amtrak provided the data
on freight railroad infrastructure ownership. We created seven host railroad
categories for the station-pairs in our sample: one category for each of five Class I
railroads—BSNF, UP, CSXT, NS, and CN; one category for multiple hosts
between a single station-pair; and one category for other, largely short-line and
regional, railroads.

We chose the Hausman-Taylor estimator for our sample after a series of tests. The
Hausman-Taylor estimator allowed us to address potential measurement error
associated with the capacity utilization variable and to obtain coefficients for our
time-invariant variables, such as host effects. The measurement error with capacity
utilization arises because of the assumptions we had to make during the
construction of the variable. These assumptions include no change in capacity
along Amtrak routes during our study period and the use of the maximum capacity
utilization value for each station-pair.


1
    The Waybill Sample provided origin, destination, and, in some cases, intermediate points for each trip sampled.
2
    Amtrak's consist books detail the numbers and types of rail cars making up each train on each Amtrak route.
3
    Station-pairs which changed host railroad accounted for less than three percent of our total observations, and we
    excluded them from our analysis.


Exhibit A. Scope and Methodology
                                                                                                                   23



EXHIBIT B. DETAILED SCOPE AND METHODOLOGY


This exhibit provides a detailed discussion of our scope and methodology broken
into the following sections: data, model, estimation, and sensitivity analyses.

DATA

Our sample includes nearly all of Amtrak's non-NEC corridor passenger routes
from Amtrak fiscal year 2002 through 2007. 1 The data covers 28 Amtrak long-
distance—defined as longer than 550 miles—and short-distance routes. 2 We
compiled 1,117 unique, non-overlapping Amtrak origin and destination station-
pairs from these routes. The unit of observation was a unique combination of
origin station, destination station, route, and month. 3 Altogether, we had 64,684
unique observations.

Station-pairs serviced by different routes were treated as separate observations.
Many instances in which multiple routes served the same station-pair involved
both short- and long-distance routes. Our treating these instances separately
allowed for the possibility that short-distance and long-distance trains were
affected differently by factors such as host railroad dispatching practices. Ninety-
three percent of the 1,117 station-pairs were served by a single route.
Approximately six percent were shared by two routes. The remaining station-pairs
were served by three to six routes.

The station-pairs in our model also differed by direction. We used directional
markets because delay times can differ according to travel direction. For example,
on the Texas Eagle, which runs between Chicago, Illinois and San Antonio, Texas,
northbound trains consistently take 100 minutes longer, on average, than
southbound trains to reach their final destination.




1
    We excluded the following NEC routes from our sample: Acela Express, Metroliner, Regional, Empire Service,
    Keystone, Vermonter and Downeaster. We also excluded one non-NEC service, the Auto Train, which travels from
    Lorton, Virginia to Sanford, Florida with no intermediate station stops.
2
    Long distance routes include the California Zephyr, City of New Orleans, Coast Starlight, Empire Builder, Cardinal,
    Lake Shore Limited, Silver Service, Southwest Chief, Sunset Limited, Texas Eagle, Capitol Limited, Crescent, Three
    Rivers and Illinois/Missouri. Short-distance routes include the Heartland Flyer, Hoosier State, Illinois, Pacific
    Surfliner, San Joaquin, Capitol Corridor, Carolinian, Cascades, Hiawatha, Michigan, Missouri, Pennsylvanian,
    Piedmont, and Kentucky Cardinal.
3
    We have unbalanced panel data in that we did not have the full 72 months worth of data for all 1,117 station-pairs.
    The minimum number of observations for any station-pair included in the sample was 12 months. At least 68 months
    of data was available for half of the station-pairs.


Exhibit B. Detailed Scope and Methodology
                                                                                                                     24


Measure of Delay

We generated our measure of delay with respect to pure runtime (PRT). 4 PRT is
the time required to make a trip in the absence of any interference. Our delay
measure is the difference between the time a train departs an origin station and the
time it arrives at its destination station minus PRT. Note that PRT delays differ
from delays with respect to scheduled travel time. Scheduled travel time
incorporates schedule padding, which may be introduced to accommodate
expected delays or as a consequence of negotiations with the host railroad. We
initially analyzed delays with respect to scheduled travel time but found that
padding hid important determinants of delay. In addition, current year padding
appeared to be related to previous year delays, and consequently introduced
endogeneity issues. The remainder of this report solely considers delays with
respect to PRT.

Though we do not present the results here, we also examined delays occurring in
stations. We found that on average, on-track delays accounted for 77 percent of
total delay minutes, while station delays accounted for 23 percent. However, while
there are scheduled terminal wait times, there is no analogue for PRT that would
correspond to time spent in a terminal. Consequently, we could not construct a
model for station delays analogous to our model of on-track delays with respect to
PRT. All delays discussed in this report are on-track delays.

Daily delays were aggregated into monthly averages by station-pair. To avoid
unrepresentative monthly averages, we eliminated station-pairs that were missing
more than two-thirds of their expected observations. 5 In addition, we eliminated
outliers that were obviously the result of data entry error. Some delays were long
enough to have compelled the cancellation of the associated trains, but did not,
and others were sufficiently negative so as to be physically impossible. Both types
of extreme delays fell within the top and bottom one percent of daily delay data,
which we removed from our sample. Figure B1 displays a histogram for average
minutes of delay for the data used in the analysis. The distribution has a longer tail
on the right, but the tail thins out dramatically as delays increase. 6 We calculated
the skewness and kurtosis to compare the degree of deviation from a normal

4
    Amtrak provided PRT data and data on arrival and departure times for each station at a daily frequency at the
    individual train level. We removed data on temporary trains—those operating less than once a week. Nearly all routes
    are serviced at least once a day.
5
    According to Amtrak, missing observations most likely occur as the result of station staff's failure to record trains'
    entry and exit times. Amtrak is currently automating the recording process for all stations.
6
    The method used to measure PRT creates considerable opportunity for noise around zero minutes of delay.
    Specifically, PRT represents a time agreed upon by representatives of both Amtrak and the relevant host railroad as
    they ride a route and gauge the minimum possible travel time. In addition, PRT changes infrequently; short-term
    travel time adjustments are usually made only in scheduled recovery time and miscellaneous adjustments rather than
    in PRT itself.


Exhibit B. Detailed Scope and Methodology
                                                                                                      25


distribution. The skewness was 2 and kurtosis 10, as compared with 0 and 3 for
the normal distribution.

Figure B1: Minutes of Delay Histogram
       25
       20
    Percent
       5
       015
       10




              -10            0              10            20                    30               40
                                         Average Minutes of Delay

Note: Figure B1 captures 99 percent of observations; the remainder have delays in excess of 40 minutes.
Source: OIG



Host Effects

We captured host railroad effects—host effects—using dummy variables for the
individual host railroads who own and dispatch the associated infrastructure.
Amtrak provided the data on railroad infrastructure ownership. We identified
seven host railroad categories associated with the station-pairs in our sample: one
category for each of five Class I railroads—Burlington Northern and Santa Fe
(BSNF), Union Pacific (UP), CSX Transportation (CSXT), Norfolk Southern (NS)
and the Canadian National Railway Company (CN); one category for multiple
hosts between a single station-pair; and one category for other, primarily short-line
and regional, railroads.

The host railroads for our 1,117 station-pairs remained constant throughout the
sample period. Three host railroads divided ownership of roughly three-fourths of
the track miles fairly evenly among them. Track miles owned by multiple hosts


Exhibit B. Detailed Scope and Methodology
                                                                                                                    26


accounted for 2 percent of total track miles, and those owned by the "other"
railroad group accounted for 4 percent. We eliminated the station-pairs between
which Amtrak hosts the tracks because there were so few of them.

Capacity Utilization Rate

Our capacity utilization measure has four components: the capacity of the railroad
infrastructure, freight traffic, Amtrak traffic, and commuter rail traffic. Traffic is
defined as the total number of cars—locomotives, passenger cars, and freight
cars—that pass over a segment of track in a given month. The Transportation
Routing Analysis Geographical Information System (TRAGIS), a national railroad
system model and routing simulation program developed by Oak Ridge National
Laboratories (ORNL), provides information on track characteristics (number of
tracks, type of signal system, frequency of passing sidings) for each segment of
intermediate track between each station-pair. ORNL used this information in
combination with data on terrain grade to develop capacity values for each
segment based on a method designed by Clark (1995). ORNL determined it was
reasonable to assume that capacity did not change along Amtrak routes over our
sample period.

We obtained raw data on daily freight traffic from the Surface Transportation
Board's Carload Waybill Sample. 7 ORNL used TRAGIS to assign routes to all
freight traffic identified in the Waybill Sample, and translated daily traffic levels
into monthly averages for each track segment. We determined Amtrak train
frequency using Amtrak timetables, and the number of cars on each train from
Amtrak consist books. We obtained information on commuter train frequency and
number of cars per train from the 10 relevant commuter agencies.

Monthly freight, Amtrak, and commuter traffic estimates were divided by the
number of days in each month to get average daily traffic to match daily capacity.
We calculated the capacity utilization rate for each segment of track by totaling
the daily averages of freight, Amtrak, and commuter rail traffic and dividing the
sum by segment capacity. The maximum value of the calculated capacity
utilization rate across all track segments between a station-pair was used to
represent segment capacity in the analysis.

MODEL

We constructed the following model to measure delays on long-distance routes.
The dependent variable is ON-TRACK DELAYijt. It is the average on-track


7
    The Waybill Sample provided origin, destination, and, in some cases, some intermediate points for each trip sampled.


Exhibit B. Detailed Scope and Methodology
                                                                                  27


minutes of delay with respect to PRT for all trains that operate at station-pair i,
route j, in month t. The rest of the model is as follows:

ON-TRACK DELAYijt = α0 + β1 PRECIPijt + β2 TEMPijt + γ1 CAP UTILijt
                          + γ 2 SLOW ORDERijt + γ 3 MECHijt + γ 4 LATE ARRijt
                          + δ1 DISTANCEi + δ 2 TURNi + η1 MEET UPjt
                          + η2 MEET NSjt + θ1 BNSFi + θ2CNi + θ3 CSXTi
                          + θ4 NSi + θ5 UPi + θ6 MULTI HOSTi
                               7
                          +   ∑λ
                              l =2
                                     l
                                         FISCAL YEARlt

where i indexes the station-pair, j the route, and t the month. The Greek letters
represent the coefficients which quantify the effect of each variable on Amtrak
delays. β’s control for weather related delays. γ’s represent non-weather related
delay determinants with both cross-sectional and time series variation. δ’s are
associated with time invariant variables. η’s represent the effects of meetings
between Amtrak and host railroads to address delays, θ’s are dummy variables for
individual host railroads, and λ’s capture fiscal year-specific effects.

This model was also used for short-distance routes with MEET UPjt and
MEET NSjt excluded, because the meetings were unrelated to short-distance
routes. MEET UPjt equals one if route j is California Zephyr and if t is later than
April 2007, the date UP and Amtrak met to discuss addressing delays on that
route. MEET NSjt equals one if route j is either Capitol Limited or Lake Shore
Limited and t is later than June of 2007, marking a meeting between NS and
Amtrak to address delays on those routes.

We generated seven host railroad dummy variables to capture the effects of
individual railroads and groups of railroads: UPi, BNSFi, CSXTi, NSi, CNi,
MULTI HOSTi, and Other RRi. UPi takes the value 1 if Union Pacific is the host
railroad for the O&D station-pair i and 0 otherwise. The rest of the individual host
dummies are defined in the same fashion. The definitions for MULTI HOSTi and
Other RRi are slightly different. MULTI HOSTi takes the value 1 if there is more
than a single host railroad for a given station-pair. Other RRi represents the group
of other, primarily short line and regional, freight railroads.

Other RRi is the reference group and its dummy is deleted from the estimation.
The coefficients on the remaining host dummies measure the difference in delays
relative to Other RRi. These dummy variables capture the time invariant
characteristics specific to each host railroad. They can include, but are not limited
to, host business model, managerial ability, and dispatching practices.


Exhibit B. Detailed Scope and Methodology
                                                                                                                   28



CAP UTILijt is the maximum monthly level of the capacity utilization rate
between station-pair i, on route j, in month t. It is the maximum ratio of traffic
volume to capacity, both measured in carloads, observed between the station-pair.
An increase in the level of capacity utilization is expected to result in an increase
in train delays. Therefore, we expect a positive coefficient on CAP UTILijt.

To capture variation in minutes of delay due to weather, we include precipitation
(PRECIPijt) and temperature (TEMPijt). 8 PRECIPijt is the percent of days during
which at least one inch of rain fell at station-pair i in month t. TEMPijt is the
percentage of days with temperatures exceeding 90 degrees for station-pair i in
month t. The weather variable for each station-pair was measured at the weather
station closest to the mid-point between the station-pair. Trains operate at reduced
speed during heavy rains. Also, most freight railroads have heat order policies that
reduce train speeds when the temperature exceeds certain thresholds. 9

SLOW ORDERijt is the average minutes of slow order delays from all the trains in
our sample operating at station-pair i, on route j, in month t. A slow order is a local
speed restriction issued by a host railroad that requires trains to travel at less than a
track segment's normal speed limit. Several triggers can result in slow orders: poor
infrastructure conditions, infrastructure maintenance or improvement, and
weather-related issues. 10 Our data includes all except weather-related slow orders,
and came from Amtrak's conductor delay reports.

MECHijt is the average minutes of delays resulting from mechanical problems
with all the Amtrak trains in our sample operating between station-pair i, on route
j, in month t. The data for this measure was also taken from Amtrak conductor
delay reports.

LATE ARRijt was used to capture delays induced by trains running well outside
their scheduled time slot. It is defined as the percent of trains that arrive more than
two hours late at the origin station of station-pair i, on route j, in month t.
LATE ARRijt could be endogenous because factors not captured in our model
could be expected to cause late arrivals. We use the percentage of trains that arrive
late rather than the actual minutes of delay to minimize this potentiality.




8
    We obtained our weather data from the National Climatic Data Center.
9
   Amtrak provided data on the freights' heat-order policies. Different freights have different thresholds for imposing
   heat-related speed restrictions. We use 90 degrees since it is the minimum threshold across the various freight
   railroads' heat-order policies.
10
    Rail infrastructure includes, but is not limited to, track, ballast, signal systems, and sidings.


Exhibit B. Detailed Scope and Methodology
                                                                                                                      29


DISTANCEi is the weighted average distance between station-pair i, with the
weights being the percentages of train and date combinations. 11 An increase in
distance increases the probability of a delay event occurring, including as a result
of factors not otherwise captured. Among these factors are delay-inducing track
configurations, such as crossovers.

TURNi takes the value 1 if the origin station of the station-pair i on route j is an
Amtrak crew base. A crew base is a location at which Amtrak changes crews.

Finally, we include fiscal year dummy variables to control for delay changes due
to time trends that affect the whole system. These could include changes in
Amtrak or host railroad practices, Amtrak ridership, and overall network
congestion. FISCAL YEAR2t takes the value 1 if month t belongs to fiscal year
2002 and 0 otherwise. FISCAL YEAR3t through FISCAL YEAR7t are generated in
a similar fashion.

ESTIMATION

We chose the Hausman-Taylor estimator for our panel data after a series of tests.12
The tests showed fixed effects estimators to be preferable and the variable
CAP UTILijt to be endogenous. The Hausman-Taylor estimator allowed us to
address the endogeneity issue and to obtain coefficients for our time-invariant
variables, such as host effects. We also tested the equality of coefficients across
the two samples for long- and short-distance routes. The difference in coefficients
confirmed our expectation that we need to estimate separate models for the two
groups. Table B1 summarizes the estimation results. The reported bootstrapped
standard errors are cluster-robust. 13

There are several reasons to expect that CAP UTILijt has some degree of
measurement error. It was constructed using data from multiple sources and
several assumptions. Most notably, translating the Carload Waybill data into
freight traffic by station-pair required the use of a routing algorithm, in our case
the one underlying TRAGIS. Use of the Waybill data also required assumptions
about the percentage of actual freight traffic the Waybill sample represented. It
11
    We obtained the distance information from Amtrak. It is weighted because of the slight changes in distance over
   time in approximately 40 percent of the station-pairs. We suspect that this difference in reported mileage occurs
   because of small changes in the methodology used in recording it.
12
    We performed an F-test on the significance of station-pair effects. The rejection of the null hypothesis of no station-
   pair effects indicated that the Fixed Effects (FE) estimator is preferable to the OLS estimator. To compare Random
   Effects (RE) and OLS estimators, we ran the Breusch-Pagan LM test and rejected the null hypothesis of no station-
   pair effects. This led to the RE estimator being preferred to the OLS estimator. We ran a bootstrapping Hausman test
   on each time-varying variable to compare FE and RE estimators. The results suggest that the variable CAP UTILijt is
   endogenous in our long-distance model.
13
    We compared OLS and cluster-robust standard errors. The significant differences between them on most of the
   variables in our model indicate the existence of clusters in the independent variables.


Exhibit B. Detailed Scope and Methodology
                                                                                                                       30


was further assumed that capacity did not change during the sample period along
Amtrak routes. Lastly, we summarized the information on capacity utilization
levels for all the track segments between each station-pair using a single measure,
the maximum. All these considerations could be expected to have greater impact
on the long-distance model as long-distance routes have many more track
segments because of having almost twice as much distance between station-pairs
on average as the short-distance routes. Consequently, we were not surprised that
tests showed CAP UTILijt to be endogenous.

SENSITIVITY ANALYSES

We performed a series of sensitivity analyses to check the robustness of our
findings. To test for the possibility of a nonlinear conditional expected value for
the dependent variable resulting from the truncation of delays near zero, we re-
estimated our model using a Tobit procedure. 14 The results deviated very little, if
at all, from those reported above. To investigate the possibility of a nonlinear
relationship between minutes of delay and the level of capacity utilization, we
tested the significance of various thresholds for capacity utilization--the 50th,
60th, 70th, 80th, and 90th percentiles-in our models. 15 The results did not suggest
a nonlinear relationship in our data.

We also experimented with augmenting capacity utilization by adding a traffic
heterogeneity variable. An increase in traffic heterogeneity, or traffic mix, has
been shown to increase train delays (Dingler et al, 2009). This occurs because
different types of traffic travel at different speeds. The more diverse the speeds of
the trains on a track segment, the more complicated the task facing a dispatcher
trying to coordinate their movements.

We generated two variables to capture traffic heterogeneity: HET1ijt and HET2ijt.
HET1ijt is similar to the Herfindahl-Hirschman index. It is the sum of squares of
service frequencies of different types of traffic, measured by the number of cars,
for all the traffic at station-pair i, on route j, in month t. 16 HET2ijt is defined in the
same fashion except that we weighted the components of the sum by the average
speed of each type of traffic. We chose the minimum value of the index across all
track segments between a station-pair for HET1ijt and HET2ijt, because the
segment with the minimum heterogeneity index has the most diverse traffic.17 In
both the long- and short-distance models, neither HET1ijt nor HET2ijt was

14
   Only 0.26 percent of delays were recorded as zero.
15
    Krueger (1999) found that the relationship between train delay and traffic volume can be expressed as an exponential
   equation. Since traffic volume is the numerator for our congestion variable, this led us to consider the possibility of a
   nonlinear relationship between the level of congestion and the average on-track delays.
16
    The types of traffic considered were passenger, commuter, and four types of freight trains.
17
    We also experimented with defining HET1ijt and HET2ijt as the average value of all the links in any given station-
   pair. The results did not change.


Exhibit B. Detailed Scope and Methodology
                                                                                  31


statistically significant, nor did they notably change the estimated coefficients on
CAP UTILijt.

We tried redefining LATE ARRijt to indicate that a train arrived either three or
four hours later than scheduled. On long-distance routes, the estimated coefficient
on LATE ARRijt increased by 9 percent using the three-hour definition and by
12 percent using the four-hour definition. On short-distance routes, the estimated
coefficient on LATE ARRijt indicating a three-hour late arrival was not significant
and a four-hour late arrival was marginally significant at the 10 percent level. The
remaining coefficients change very little with the various definitions of
LATE ARRijt in both the long- and short-distance route models. We expected the
impact of late arrivals on delays to increase with the degree of lateness, and such
results were observed in long-distance routes. However, trains rarely arrived more
than two hours late in our short-distance route sample.

Alternative thresholds were also tested for the weather variables. PRECIPijt is
defined to be the percentage of days having greater than or equal to an
accumulation of one inch of precipitation, which represents the 97.5th percentile
in our sample. Cut-offs at the 85th, 90th, 95th percentiles, and average
precipitation, were tested. The estimated coefficients in the long-distance model
were 26 percent to 56 percent smaller than those on the precipitation variable as
first defined, but were still significant at the one percent level. Similarly, in the
short-distance model the estimated coefficients on the alternative measures were
48 percent to 64 percent smaller than with the initial definition.

For TEMPijt, which is currently defined as the percentage of days on which
temperatures greater than or equal to 90 degrees are registered, we tested
thresholds of 95, 100, and 110 degrees. The results showed that the higher the
threshold, the greater the effect on delays on long-distance routes. However, the
effect was insignificant using a 110 degree threshold, as temperatures above 110
degrees rarely occur. On short-distance routes, the coefficient on the temperature
variable increases by 28 percent using a 95-degree threshold, and is significant at
the 5 percent level. It becomes insignificant with a 100-degree definition. The
coefficient becomes negative with an increase in absolute size of 116 percent
when using a threshold of 110 degrees, and is significant at the one percent level.

REFERENCES

Clarke, D. B. (1995): "An Examination of Railroad Capacity and its Implications
for Rail-Highway Intermodal Transportation", Ph.D. Dissertation. The University
of Tennessee, Knoxville.




Exhibit B. Detailed Scope and Methodology
                                                                         32


Dingler, M. H., Y-C. (R). Lai, C. P. L. Barkan (2009): "Impact of Train Type
Heterogeneity on Single-Track Railway Capacity", Transportation Research
Record: Journal of the Transportation Research Board, 2117, 41-49.

Krueger, H. (1999): "Parametric Modeling in Rail Capacity Planning",
Proceedings of the 1999 Winter Simulation Conference, 2, 1194-1200.




Exhibit B. Detailed Scope and Methodology
                                                                                                  33


Table B1: Hausman-Taylor Estimators for Long-Distance and
Short-Distance Samples
   Variable                                 Long-Distance Routes          Short-Distance Routes
   Precipitation                              2.836***                      3.108***
                                              (0.614)                       (0.774)
   Temperature                                0.804***                      0.457***
                                              (0.161)                       (0.159)
   Capacity Utilization                       1.869***                      2.544**
                                              (0.692)                       (1.041)
   Slow Order                                 0.896***                      1.128***
                                              (0.0322)                      (0.0438)
   Amtrak Mechanical Failure                  0.156***                      0.200***
                                              (0.0570)                      (0.0694)
   Late Arrival                               2.843***                      3.648**
                                              (0.304)                       (1.557)
   Meet UP                                    0.682
                                              (0.649)
   Meet NS                                    0.158
                                              (2.185)
   Distance                                   0.781***                      1.895***
                                              (0.0575)                      (0.131)
   Turn Point                                 1.447***                      1.457**
                                              (0.451)                       (0.586)
   UP                                         3.669***                      0.945*
                                              (0.583)                       (0.527)
   BNSF                                       -1.902***                     -1.805***
                                              (0.583)                       (0.598)
   CSXT                                       2.575***                      -0.572
                                              (0.507)                       (0.924)
   NS                                         1.812***                      -0.485
                                              (0.555)                       (0.602)
   CN                                         0.707                         1.010
                                              (0.548)                       (0.708)
   Multiple Hosts                             7.078***                      5.233***
                                              (1.466)                       (1.236)
   FY 2002                                    -0.0956                       -0.804***
                                              (0.203)                       (0.173)
   FY 2003                                    -0.294                        -0.681***
                                              (0.187)                       (0.176)
   FY 2004                                    -0.136                        -0.600***
                                              (0.162)                       (0.150)
   FY 2005                                    -0.0365                       -0.655***
                                              (0.137)                       (0.124)
   FY 2006                                    0.568***                      -0.228*
                                              (0.110)                       (0.121)
   Observations                               48649                         16035
   Number of Station-Pairs                    810                           307
  Notes: *Significant at the 10 percent level. **Significant at the 5 percent level.
         ***Significant at the 1 percent level.




Exhibit B. Detailed Scope and Methodology
                                                                                       34




EXHIBIT C. CONFIDENCE INTERVALS ON SYSTEM-WIDE DELAY
ESTIMATES, IN SECONDS, BY CAUSE
Long-Distance Services
Variable                        Estimate 95% CI Lower Bound         95% CI Upper Bound
Slow Orders                          115                    107                      123
UP Host Effect                        50                     34                        66
CSXT Host Effect                      38                     23                        53
Late Arrival                          30                     24                        36
Capacity Utilization                  26                      7                        45
Turn Point                            20                      8                        33
NS Host Effect                        17                      7                        28
Multiple Host Effect                  11                      7                        16
Amtrak Mechanical                      4                      1                         7
BNSF Host Effect                      -27                   -44                       -11


Short-Distance Services
Variable                       Estimate     95% CI Lower Bound     95% CI Upper Bound
Slow Orders                          63                      58                       67
Capacity Utilization                 24                       5                       44
Turn Point                           16                       3                       29
Multiple Host Effect                 15                       8                       22
UP Host Effect                       12                      -1                       25
Late Arrival                           3                      1                        6
Amtrak Mechanical                      2                      1                        4
BNSF Host Effect                     -24                    -39                       -8
Note: The confidence interval for each estimate provides a range that the true value of the
variable would be expected to fall within 95 percent of the time in the sample period.




Exhibit C. Confidence Interval s on S ystem-w ide Delay Estimates, in
Seconds, b y Cause
                                                                       35


EXHIBIT D. AMTRAK ROUTES


ROUTE                         ENDPOINTS
California Zephyr             Chicago, IL           Emeryville, CA
Capitol Corridor              Auburn, CA            San Jose, CA
Capitol Ltd                   Washington, DC        Chicago, IL
Cardinal                      Chicago, IL           New York, NY
Carolinian                    New York, NY          Charlotte, NC
Cascades                      Eugene, OR            Vancouver, BC
City of New Orleans           Chicago, IL           New Orleans, LA
Coast Starlight               Seattle, WA           Los Angeles, CA
Crescent                      New York, NY          New Orleans, LA
Empire Builder                Chicago, IL           Seattle, WA
Heartland Flyer               Oklahoma City, OK     Fort Worth, TX
Hiawatha                      Chicago, IL           Milwaukee, WI
Hoosier                       Chicago, IL           Indianapolis, IN
Illinois (a)                  Chicago, IL           Carbondale, IL
        (b)                   Chicago, IL           Quincy, IL
        (c)                   Chicago, IL           St. Louis, MO
Illinois/MO                   Chicago, IL           Kansas City, MO
Kentucky Cardinal             Chicago, IL           Indianapolis, IN
Lake Shore Ltd                Chicago, IL           New York, NY
Michigan                      Chicago, IL           Pontiac, MI
Missouri                      Kansas City, MO       St. Louis, MO
Pacific Surfliner             San Luis Obispo, CA   San Diego, CA
Pennsylvanian                 New York, NY          Pittsburgh, PA
Piedmont                      Charlotte, NC         Raleigh, NC
San Joaquin                   Sacramento, CA        Bakersfield, CA
Silver Service (a)            New York, NY          Savannah, GA
                     (b)      New York, NY          Miami, FL
Southwest Chief               Chicago, IL           Los Angeles, CA
                     a
Sunset Ltd (a)                Orlando, FL           Los Angeles, CA
                     b
               (b)            New Orleans, LA       Los Angeles, CA
Texas Eagle                   Chicago, IL           Los Angeles, CA
Three Rivers                   Chicago, IL          New York, NY
a
  October 2001 to October 2005
b
  October 2005 to Present




Exhibit D. Amtrak Routes
                                                                                                                             36




EXHIBIT E. CONTRIBUTIONS TO AVERAGE STATION-PAIR DELAYS, IN MINUTES, ON
INDIVIDUAL LONG-DISTANCE ROUTES BY CAUSE



                      Capacity      Slow     Amtrak       Late      Turn    UP     BNSF    Multiple   CSXT   NS     Net
Services
                      Utilization   Orders   Mechanical   Arrival   Point   Host   Host    Host       Host   Host   Effect
California Zephyr     0.48          3.43     0.07         0.88      0.38    2.02   -0.83   0.11       0      0      6.55
Capitol Ltd           0.36          1.29     0.11         0.51      0.31    0      0       0.25       0.98   1.06   4.87
Cardinal              0.17          1.26     0.07         0.46      0.26    0      0       0.48       2.16   0.17   5.03
Carolinian            0.20          0.97     0.02         0.23      0.39    0      0       0.23       0.96   1.07   4.09
City of New Orleans   0.33          1.73     0.05         0.16      0.40    0      0       0.20       0      0      2.86
Coast Starlight       0.21          4.67     0.06         0.91      0.37    3.07   -0.28   0          0      0      9.01
Crescent              0.37          0.84     0.04         0.31      0.32    0      0       0.13       0.05   1.74   3.81
Empire Builder        0.83          0.89     0.07         0.20      0.38    0      -1.43   0          0      0      0.93
Illinois/MO           0.28          1.53     0.02         0.13      0.15    3.17   0       0.58       0      0      5.86
Lake Shore Ltd        0.33          0.90     0.07         0.54      0.41    0      0       0.50       1.16   0.87   4.78
Silver Service        0.20          1.48     0.04         0.55      0.35    0      0       0.08       2.21   0.03   4.93
Southwest Chief       0.62          0.65     0.13         0.26      0.36    0      -1.87   0.11       0      0      0.27
Sunset Ltd            0.94          3.08     0.12         1.23      0.33    2.25   0       0          0.99   0      8.94
Texas Eagle           0.37          4.57     0.05         0.57      0.22    2.78   -0.27   0.56       0      0      8.85
Three Rivers          0.56          0.83     0.12         0.25      0.23    0      0       0.28       0.80   1.17   4.24




Exhibit E. Contribut ions to Average Station-Pair Del ays, in Minutes, on Indi vidual Long-Distance Routes
by Cause
                                                                                                             37




EXHIBIT F. CONTRIBUTIONS TO AVERAGE STATION-PAIR DELAYS, IN MINUTES,
ON INDIVIDUAL SHORT-DISTANCE ROUTES BY CAUSE


                    Capacity      Slow     Amtrak       Late      Turn    UP     BNSF    Multiple   Net
Services
                    Utilization   Orders   Mechanical   Arrival   Point   Host   Host    Host       Effect
Capitol Corridor    0.27          0.95     0.02         0.01      0.31    0.95   0       0          2.50
Cascades            0.60          1.78     0.05         0.03      0.56    0.26   -1.32   0          1.96
Heartland Flyer     0.85          3.11     0.01         0.04      0.24    0      -1.80   0          2.45
Hiawatha            0.08          0.29     0.03         0         0.42    0      0       0          0.82
Hoosier             0.30          2.28     0.12         0.13      0.29    0      0       1.05       4.17
Illinois            0.37          0.87     0.04         0.03      0.20    0.26   -0.49   0.30       1.58
Kentucky Cardinal   0.26          1.51     0.08         0.33      0.29    0      0       1.05       3.52
Michigan            0.27          1.04     0.03         0.09      0.31    0      0       0.71       2.45
Missouri            0.57          2.36     0.01         0.22      0.17    0.95   0       0          4.29
Pacific Surfliner   0.24          0.17     0.03         0.01      0.24    0.10   -0.21   0          0.58
Pennsylvanian       0.65          0.42     0.07         0.13      0.21    0      0       0.06       1.55
Piedmont            0.27          0.63     0.01         0.01      0.19    0      0       0          1.10
San Joaquin         0.75          0.58     0.04         0.04      0.15    0.25   -1.28   0.13       0.65




Exhibit F. Contribut ions to Average Station-Pair Del ays, in Minutes, on Indi vidual Short- Distance Routes
by Cause
                                                                38



EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Betty Krier                             Program Director/
                                        Supervisory Economist

Chia-Mei Liu                            Senior Economist

Brian McNamara                          Senior Economist

Jerrod Sharpe                           Senior Economist

Kang Hua Cao                            Economist

Susan Neill                             Writer/Editor




Exhibit G. Major Contributors to This Report
